                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: A05-56
                                                                                  11           Page 1 of 1



          A proactive review identified potential plagiarism and copying of one figure from a web
          (source) into an NSF proposal2. A review of the two documents shows that the amount of text
          copied was minimal and described part of an experimentalprotocol specific to the facility where the
          research was to be conducted. The copied figure was a schematic of that facility. The source
          document predates the proposal submission by less than one month. A web archive search did not
          identify a previous version of that web page containing similar language.                   ,

          Given the small amount of text and the fact that the source document and the proposal.were
                                                                                        -  -         created
          at approximatelythe same time, there appears to be no substance to the allegation. Accordingly, this
          case is closed.                                                   ,
                                                                            4i



                            I
                                                                                                      ,   1


                                                                            ii




I'
 NSF OIG Form 2 (1 1/02)
